Supreme Court, U.S.
FILED

FEB 1 0 2021

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-6945

Robert White

Kubotek Corporation, and Kubotek USA, Inc.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

E Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.

E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a

arre4.4./

o

Signature
Date:

y
mm
ber.

February

(Type or print) Name

IA 2021
Mark W. Powers
E Mr.

❑ Ms.

D Mrs. 0 Miss

Bowditch & Dewey, LLP
Firm
311 Main Street
Address
City & State

Worcester, Massachusetts

508 926-3427
Phone

Zip

mpowers@bowditch.com
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Robert White

BOWDITCH

Bowditch & Dewey, LLP
311 Main Street I PO Box 15156 I Worcester, MA 01615
508-791-3511 I bowditch.com
Mark W. Powers
Direct telephone: 508-926-3427
Direct facsimile: 508-929-3040
Email: mpowers@bowditch.com

February 10, 2021
By overnight mail:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Robert White, Petitioner v. Kubotek Corporation, et al, United States Supreme Court,
Docket No. 20-6945)

Dear Sir/Madam:
Enclosed is a Waiver of the right to file a Response to the Petition for Writ of Certiorari filed in
the above matter. The Waiver has been served on the Petitioner by electronic mail and by first
class mail, postage prepaid.
Enclosed also is a copy for date-stamping for return in the enclosed, self-addressed stamped
envelope. Thank you for your assistance.
Very truly yours,

Mark W. Powers
MWP:aw

REC
FP', 16 ZCZ1
OFFICE c•,SUPc2F?,F.
303704/0002/4848-5701-3211.1

Ct.1.11‘

